         April 28, 2004




                      Statement
                          of
                  David K. Steensma
  Assistant Inspector General, Contract Management

                COL William J. Kelley
        Program Director, Data Mining Division

        Office of the Inspector General of the
               Department of Defense
                         to the
       Senate Committee Governmental Affairs
                           on
How to Save the Taxpayers Money Through Prudent Use
                 of the Purchase Card


                     D-2004-076-T



                 Department of Defense
             Office of the Inspector General
Madam Chairman and Members of the Committee:


Thank you for the opportunity to appear before your Committee today and address your

questions regarding the use of purchase cards in the Department of Defense. Although

the Department has taken aggressive action to improve the program, the purchase card

program still needs better implementation and oversight of management controls at the

activity level. Every dollar that is not spent prudently through purchase cards is a dollar

that is not being spent to support the global war on terrorism.



The Inspector General of the Department of Defense has an important statutory role in

the Purchase Card program. The National Defense Authorization Act for fiscal year 2003

contains a provision at section 2784 (b)(8) of title 10, United States Code, that:

                “the Inspector General of the Department of Defense . . . . perform

               periodic audits to identify -

                        (A) potentially fraudulent, improper, and abusive uses of purchase

               cards;

                        (B) any patterns of improper cardholder transactions, such as

               purchases of prohibited items; and

                        (C) categories of purchases that should be made by means other

               than purchase cards in order to better aggregate purchases and obtain

               lower prices.”



The Joint Purchase Card Program Management Office reports that the purchase card

program within the Department of Defense accounted for 10.7 million purchase actions



                                                                                              1
valued at about $7.2 billion in fiscal year 2003. Every working day DoD employees

make about 41,000 purchases valued at $27.6 million, which exemplifies the magnitude

of this program. Nevertheless, the purchase card is only one of many acquisition

instruments available to the Department. The purchase card accounts for 3 percent of the

$231 billion in acquisitions and 25 percent of the purchase actions made in the

Department in fiscal year 2003.



Today, I want to present the results of three Office of the Inspector General, Department

of Defense audit reports issued in fiscal years 2003 and 2004, which identified

management control problems with the use of purchase cards. I will also discuss the

actions our office is taking to promote data mining and to partner with program

management offices so that we can more proactively identify and prevent potential fraud,

waste, and mismanagement. These collective efforts will help improve the purchase card

program. Further, I want to present information that show improvements in management

of the purchase card program.



The three reports issued were “Summary Report on the Review of Selected DoD

Purchase Card Transactions” June 27, 2003, (D-2003-109); “Selected Purchase Card

Transactions at Washington Headquarters Services and Civilian Personnel Management

Service” October 16, 2003, (D-2004-002); and “Purchase Card Use at the Space and

Naval Warfare Systems Command, Information Technology Center, New Orleans,

Louisiana,” November 14, 2003, (D-2004-016).




                                                                                            2
Summary Report



The Office of the Inspector General auditors and investigators led the Service and

Defense agency audit organizations and the Military Criminal Investigative

Organizations in performing an in-depth review of purchase card transactions for 1,357

purchase cardholders that had been identified by our data mining division using business

rules and fraud indicators. The review involved calendar year 2001 purchase card

transactions and was done from May 2002 through June 2003. This review determined

that 182 cardholders used their purchase cards inappropriately or fraudulently and spent

about $5 million in scarce resources by doing so.



   •   The Office of the Inspector General and Defense agency personnel identified

       $840,000 of inappropriate or fraudulent purchases. Nine cardholders made

       inappropriate purchases; five of whom were referred for criminal investigation.

       For example, a cardholder used the purchase card 52 times over an 8-week period

       to make a single purchase for $551,000. The cardholder was circumventing the

       dollar value limit on the purchase cards.

   •   The Army auditors identified $520,000 of inappropriate or fraudulent purchases.

       Eighty-eight cardholders made inappropriate purchases; four of whom were

       referred for criminal investigation. One cardholder purchased a Santa suit for

       $232, one inappropriately rented a vehicle for $910, and another accessed

       pornographic and sports-related Web sites.




                                                                                           3
   •   The Navy auditors identified $3.2 million of inappropriate or fraudulent

       purchases. Forty-four cardholders made inappropriate purchases; eight of whom

       were referred for criminal investigation. One cardholder used the purchase card

       to make 59 fraudulent purchases totaling more than $130,000. The purchases

       included two automobiles, one motorcycle, and cosmetic enhancements done

       through surgery.

   •   The Air Force auditors identified $554,000 of inappropriate or fraudulent

       purchases made by 41 cardholders; 24 of whom were referred for criminal

       investigations. One cardholder made 29 inappropriate or unauthorized purchases

       of meals, gasoline, and recreational activities that totaled about $6,000.

       Additionally, unauthorized individuals used stolen Air Force purchase card

       account numbers for 155 purchases totaling $30,196. The transactions included

       charges to sexually explicit and gambling Web sites.



Washington Headquarters Services



Washington Headquarters Services management controls for the purchase card program

did not ensure that purchases totaling about $6 million, were mission related, properly

safeguarded, and provided the best value for the Government. A lack of controls and

management oversight resulted in about $1.7 million of fraudulent purchases from May

1999 through August 2002 and at least $201,000 in additional purchases that were

abusive, improper, or unauthorized. Property costing at least $50,000 purchased with the




                                                                                          4
Government purchase cards was not recorded on the inventory records and could not be

located.



The audit examined 17 cardholders and 4,793 purchase card transactions that occurred

from September 2000 through December 2001. The audit was ongoing from May 2002

through April 2003. This is a good example of the benefits of data mining because we

originally identified 6 cardholders with 79 flagged transactions and expanded the audit

after reviewing the initial flagged transactions.



The audit and investigative work resulted in three convictions:

   •   The civilian Director of the Graphics and Presentation Division, Real Estate and

       Facilities Division, Washington Headquarters Services was convicted of theft of

       Government property stemming from her use of the Government charge card to

       make about $1.7 million of fictitious purchases from a fictitious firm. She was

       sentenced to 37 months imprisonment and $1.7 million restitution.

   •   A vendor was convicted of theft of Government property stemming from his

       participation in a scheme with his sister, the Director of the Graphics and

       Presentation Division, Real Estate and Facilities Division. The vendor created a

       company solely to facilitate the scheme and was sentenced to 48 months

       imprisonment; 3 years supervised probation, and $1.6 million restitution.

   •   The civilian Deputy Director of the Graphics and Presentation Division was

       convicted for theft of Government property totaling more than $30,000 resulting

       from her misuse of the Government charge card. She used her Government




                                                                                          5
       charge card to purchase items, which she then stole and converted to her own use.

       She was sentenced to 3 years of supervised probation, which included 6 months of

       home confinement with electronic monitoring, and ordered to make full

       restitution.



Ten cardholders in the Graphics and Presentation Division of the Washington

Headquarters Service made at least 162 purchases, valued at $173,509, that had no

apparent Government need or were at an excessive cost. Items purchased that we

considered abusive were 11 portable DVD players; 4 cameras costing between $1,099

and $19,369; and a variety of novelty items such as stainless steel cups, mugs, key

chains, and tote bags, all costing $57,000. Items purchased that we considered improper

included furniture, unauthorized computer equipment, and a hand-held computer. Items

purchased for personal use included computer games, a microwave oven with a 3-year

warranty, 3 sets of magnetic toys, a digital mini-stereo system, two desk fans, and two

under-the-counter kitchen CD radios.



The cardholders also circumvented required contracting procedures and did not receive

the best value for $511,000 of supplies and services. The cardholders split purchases into

multiple transactions so they could stay below the $2,500 micro-purchase threshold. This

resulted in noncompetitive acquisitions and higher prices. For example, one vendor was

paid $36,000 for 9,000 American flag decals that could have been bought for $3,000.




                                                                                          6
We recommended that a review be performed and appropriate actions be taken to hold

the management officials and cardholders accountable for failure to perform their duties

under the purchase card program; establishing separation of duties for key positions of

oversight, implementing required purchase card controls, and performing required

oversight reviews. We also recommended periodic reviews that place emphasis on

stopping the use of split purchases and vendor preference. In response, the Director of

Washington Headquarters Service initiated aggressive measures that included recovery of

assets, continuing review and upgrade of program safeguards, and major changes in the

management of the purchase card program.



Information Technology Center, New Orleans, Louisiana



Controls over the purchase cards that would have reduced the risk of fraud, waste, and

abuse were not properly implemented and were ignored by senior management at the

Information Technology Center. Controls were not effective because the senior

managers displayed a lack of integrity and did not adopt internal control procedures.

Approximately $1.1 million of Information Technology Center purchases were

questionable because there was no obvious mission need for the items purchased.

Further, the Government had an unnecessary monthly financial risk because the monthly

cycle limit was $31 million more than needed. The Information Technology Center

management also needed to improve controls over property accountability. At least $1.7

million of property was not recorded in the property book, property was missing and

went unreported, property was at individuals’ homes without adequate property passes,




                                                                                           7
and pilferable property was inappropriately removed from the accountable record. The

audit covered purchase card transactions from May 1999 through September 2002 and

was performed from March 2002 through May 2003.



   •   Questionable items purchased included 10 pairs of binoculars totaling $1,999 as a

       security measure to watch for terrorists on Lake Ponchartrain; 6 bicycles costing

       $2,393 to be used by interns from New Orleans University in a non-existent intern

       program; 3 global positioning systems costing about $1,720 for the Director to

       use because he routinely got lost when he went on travel; and luggage costing

       about $700 that was purchased because the Director and his Deputy traveled a lot

       and needed to carry briefing papers.

   •   The purchase card was used to inappropriately acquire $785,000 of computer

       equipment, 18 cell phones and monthly usage plans, and $21,000 of office

       supplies. The cardholders failed to use Navy contracts, General Services

       Administration Advantage contracts, and DoD Enterprise Software Initiative

       Contracts. The cardholders were not getting the discounts and reduced prices

       available from the contracts.



We recommended the Commander, Space and Naval Warfare Systems Command

perform a review and initiate appropriate actions against the managers and cardholders

involved in making the purchases categorized as abusive. We also recommended

implementing required management controls and reviews of purchase cards and requiring

cardholders to order from required sources. The Chief of Staff/Policy for the Deputy




                                                                                           8
Assistant Secretary of the Navy for Acquisition Management and the Deputy

Commander of the Space and Naval Warfare System Command both responded to the

report and agreed to initiate the required corrective actions.



Data Mining

       In January 2003, we established a Data Mining Division in the Office of the

Inspector General. We took 12 personnel from other audit activities to pioneer the use of

data mining techniques in the Department of Defense. Data mining is the process of

analyzing data from different perspectives to identify previously unknown relationships

among data, or finding correlations or patterns among data and summarizing it into useful

information. As part of the process, the techniques developed are passed on to

management to assist in their oversight of the programs reviewed. I want to assure the

committee that concerns for personal privacy are foremost in any data mining efforts we

perform. In addition, we protect any personal information we obtain and limit its access

to personnel with the need to know.

       The Office of the Inspector General has been the focal point in the Department of

Defense for charge card audits, data mining, and investigations. The Office of the

Inspector General has coordinated the efforts of the ongoing and planned audits and

investigations on charge cards in the Department and provided a forum for management

to identify issues that they would like the auditors to include in their reviews. This

increase in communications between auditors and the Department of Defense Program

Management Offices for the Purchase Card, Travel Card, Fleet Card, and Aviation Card,




                                                                                           9
and the Defense Finance and Accounting Service has resulted in a positive approach to

improving the DoD Charge Card Program as well as enhanced management relations.


       Outside of the Department of Defense, we provided assistance and lessons learned

on data mining to the President’s Council on Integrity and Efficiency, Inspection and

Evaluation Committee; the Office of Federal Procurement Policy; the Fraud Detection

Office, Department of Justice; the House Appropriations Committee surveys and

investigations staff, the Government Printing Office, Federal Bureau of Prisons, and the

Offices of the Inspector General for the:

               Central Intelligence Agency,

               Department of Commerce,

               United States Postal Service,

               Small Business Administration,

               Department of Justice, and

               Department of the Treasury.



       The Office of the Inspector General, Department of Defense, Data Mining

Division has mined data from purchase cards, travel cards, fleet cards, aviation cards, and

transportation payments. Since March of 2003, the Division has been working with the

Navy to develop the Navy Pilot Program for the purchase card. The Navy Pilot Program

is a prototype system that is based on a set of business rules and potential fraud

indicators. The system uses high-risk purchase card transactions identified by the Data

Mining Division, and sends an e-mail to a management official requesting additional

information for assessing the appropriateness of the purchase card transaction. The



                                                                                          10
approving official’s response to questions populates the database, which can be used for

reporting trends, identifying deficiencies, and better managing the purchase card program

through risk analyses. The Department of Defense Program Management Office for

purchase cards plans to implement some of the procedures and techniques used in the

prototype Department-wide. A concept for a Continuous Monitoring System for the

purchase card program is at Attachment 1.



Positive Trends on Improved Controls Over the Use of Purchase Cards

       The Department of Defense is actively working to maintain a culture that

promotes a positive and supportive attitude toward active management controls for

purchase cards and accountability. In a June 21, 2002, Memorandum the Deputy

Secretary of Defense set the tone when he stated:

              “I am directing management at all levels to ensure the necessary oversight

       of Government charge cards and education to eliminate fraud, misuse, and abuse

       of these charge cards. We are the stewards of public funds and must not tolerate

       any use of charge cards that violates the public’s trust. Therefore, we must take

       immediate action to ensure that: (1) further misuse of government charge cards

       does not occur and (2) appropriate remedies are taken with respect to those who

       engage in or tolerate such misuse. The key factor to success of these valuable

       programs is the direct involvement of senior military leaders and civilian

       managers for the Department of Defense.”




                                                                                           11
Defense managers have made a concerted effort to improve internal controls and

publicize disciplinary actions to be taken when misuse or abuse of the charge card is

identified. Positive trends in the management of the purchase card program include the

reduction in the number of purchase cards from 214,000 in September 2002 to 114,000 in

March 2003 (47 percent). Additionally, the average number of accounts that each billing

or approving official is responsible for has decreased from 3.5 to 1 in fiscal year 2002 to

2.4 to 1 in the first half of fiscal year 2004. The Department has developed a web-based

tutorial to train all new cardholders and billing officials. This is in addition to the

training already available from the General Services Administration and the banks. The

Deputy Under Secretary of Defense for Civilian Personnel Policy issued a Government

Charge Card Disciplinary Guide for Civilian Employees on April 21, 2003, and the

Under Secretary of Defense for Personnel and Readiness issued Disciplinary Guidelines

for Misuse of Government Charge Cards by Military Personnel on June 10, 2003.



Other indicators of improvements in the Purchase Card Programs are cited in General

Accounting Office Report Number GAO-04-156, “Purchase Cards – Steps Taken to

Improve DoD Program Management, but Actions Needed to Address Misuse,” December

2003. The report stated that:

                       “DoD and the military services have taken strong actions to

               improve the controls over the purchase card program. DoD has initiated

               actions to implement all of the requirements that were mandated in the

               fiscal year 2003 National Defense Authorization and DoD Appropriations

               acts. In addition, DoD and the military services have taken actions on




                                                                                          12
              nearly all of the 109 recommendations that GAO made in its four reports

              on the purchase card program, and DoD has plans to have most of the

              recommendations implemented by June 2004.”



Achieving Savings on Purchase Card Buys



We support the conclusions in General Accounting Office Report Number GAO-04-430,

“Agencies Could Achieve Significant Savings on Purchase Card Buys,” April 2004 and

recommendations that identify opportunities to obtain more favorable prices on purchase

card buys. We look forward to using data mining techniques and working with the

Department of Defense acquisition community to creatively reduce costs related to prices

on purchase card buys. We can do this by determining which vendors we are buying

from, the volume of the purchases, and the types of purchases. Data mining will also tell

us whom we need to negotiate contracts and point of sale discounts with. Further, with

detail purchasing data we can determine if Federal buyers are purchasing from the

appropriate or best source. However, this is an area where the Administrator of the

General Services Administration should take the lead. I do not believe we want

commercial vendors to have to negotiate point of sale discounts and other discount

agreements on purchase cards from a multitude of Federal agencies. Further, this is an

area where establishing a Center of Excellence for Charge Cards should be considered.




                                                                                         13
Investigations

       The Department has outstanding criminal investigative organizations that have

worked hard on reducing purchase card fraud. The Office of the Inspector General

Defense Criminal Investigative Service, the Army Criminal Investigative Division, Navy

Criminal Investigative Service, and Air Force Office of Special Investigations have all

worked diligently to eliminate purchase card fraud. Since reporting began in January

2003, 15 investigations have been completed and 57 criminal investigations are ongoing

related to charge cards. Attachment 2 highlights some of the completed investigations.



Conclusion

       The positive actions that have been presented in this testimony have occurred

because of serious problems highlighted in 2002. Although the Department has made

great strides in improving the program, there is still work to be done to ensure that all of

the charge cards in the hands of Department employees are used prudently. We currently

have three ongoing reviews on purchase cards in the Military Health System, at the

Education Activity in Europe, and at the Corps of Engineers, Louisville District. We are

also reviewing the use of purchase card convenience checks. We plan to issue reports on

these reviews later in 2004.



Thank you for considering the views of the Department of Defense, Office of the

Inspector General on these critical issues. This concludes our testimony.




                                                                                           14
              Continuous Monitoring System




                                 Bank
                                 Data
                                                                 Data                                         Action
                                                                Mining                                       Required
                            1

1.   Bank (transaction)                                          5.   Transaction and checklist results returned to
     data are extracted,                                              data storage. In further cycles, the information
     transformed, and        Data                                     is also incorporated and utilized in step 2 to
     transported in to      Storage                                   look for possible manager collusion. If a
     fraud detection data
     storage location.
                                                      5               pattern of possible collusion is detected,
                                                                      additional notification and report is submitted to
                                                                      higher-level manager for action.




                            2                                                              Web-based
2.   Data mining and
                                                                                            response
     business rules are
     applied against data
                             Data
     to select and subset   Mining
     suspicious                                                                    4.   Approving Officials, Agency
     transactions.                                                                      Program Coordinators, and
                                             E-mail
                                                                            4           managers investigate transactions
                                                                                        and fill out Web-based survey
                                             Reports                                    responses that detail steps for
                                                                                        verifying transactions.




                                                  3
                            3.    Approving Officials, Agency Program
                                  Coordinators, and auditors are notified by
                                  e-mail about suspicious employee transactions.




                                                                                             Attachment 1
                   Examples of Cases on Charge Card Fraud

Personal Use

  •   David M. White pled guilty to placing fraudulent charges against 13 Government
      credit cards. He was sentenced in U.S. District Court, Panama City, Florida, to
      18-months incarceration, $262,840 in restitution and other fees, and 36 months
      supervised release.

  •   Jerome D. Phillips pled guilty to conspiracy in a fraudulent scheme involving the
      misuse of a purchase card while assigned to the Joint Staff Supply Service. He
      was sentenced in U.S. District Court, Eastern District of Virginia, to serve a jail
      term of 12 months and one day, 24 months probation, and restitution and other
      fees of $120,000.

  •   Sherry K. Pierre pled guilty of making $130,000 worth of illegal purchases on her
      Government-issued charge card. Pierre’s purchases included a car, motorcycle,
      breast-lift surgery, furniture and other household goods, and a down payment on
      another vehicle. Pierre was demoted from staff sergeant to lance corporal, fined
      $30,000 and sentenced to 14-months of imprisonment.

Cardholder Conspiracy With Vendor

  •   Former Master Sergeant Bobby Gilchrist pled guilty to one count of money
      laundering, accepting bribes and conspiracy with office product vendors. He
      conspired with contractors to defraud the Department of Defense by requesting
      the submission of fake bills for goods and services that were never provided, and
      accepting cash payments (kickbacks) for making both legitimate and bogus
      purchases from them, using his and other employees’ credit cards. He was
      sentenced in U.S. District Court, Eastern District of Virginia, to 41 months in
      prison, 3 years of supervised release, and $400,300 in restitution and other fees.

  •   Jerome Phillips, a cardholder involved with the Gilchrist scheme was sentenced to
      one year and a day in prison.

  •   Dennis Carey, a cardholder with the U. S. Army Corp of Engineers, pled guilty to
      two counts of bribery. He was sentenced in the U. S. Court, Central District of
      California, to 30 months of imprisonment, a three-year period of supervised
      release, a restitution payment of over $283,000 including a special assessment
      related to fraudulent billings on his Government purchase card. Mr. Carey and
      the vendor agreed to submit fraudulent invoices for goods and services to the
      U. S. Army Corp of Engineers that Mr. Carey would authorize for payment
      through his purchase card. Mr. Carey and the vendor split the proceeds of the
      fraudulent billing scheme, sharing an estimated total of more than $267,000.



                                                                            Attachment 2
                                                                              Page 1 of 2
Vendor Fraud

  •   Tyrone X. Celey, Sr., owner of Pronto and Speedy, (two of the companies
      involved in the Gilchrist case) pled guilty to bribing DoD employees to make
      credit card purchases from his office supply company. He was sentenced in U.S.
      District Court, Eastern District of Virginia, to 27 months incarceration, 36 months
      of supervised release, and $400,200 in restitution and other fees.

  •   Robin Noland, owner of Direct Office Products (one of the vendors involved in
      the Gilchrist case) pled guilty to conspiracy to defraud the United States and was
      sentenced to 2 years of probation and ordered to pay $72,500 in restitution.




                                                                           Attachment 2
                                                                             Page 2 of 2
